No.

^
0*f. vJy

/■

i-

- OF' oF

r~?

1cl;/
•
;

bup;-ar,,3 Court, U.S.
FILED

!

IN THE

>m! s mi

. f

SUPREME COURT OF THE UNITED STATES

j

C.-FICE OF THE CLERK

RANDY T. THOMAS - PETITIONER
VS.
PETERSBURG UTILITY LINES WATER DEPARTMENT:
STEVE STANSON SUPERVISOR, MRS. JARMON (RETIRED) HEAD OF RISK
DEPARTMENT; KIMBERLY ROBERTSON, HUMAN RESOURCES DEPARTMENT
(RESPONDENTS)
AND
ANTHONY WILLLIAMS, PETERSBURG CITY ATTORNEY (RESPONDENT)
JIM REED, PETERSBURG FIRE DEPARTMENT (RESPONDENT)
SGT HALL, PETERSBURG POLICE FORCE (RESPONDENT)
PETITION FOR WRIT OF CERTIORARI
TO
UNITED STATES DISTRICT COURT FOR THE EASTERN DISTRICT OF VIRGINIA,
RICHMOND

RECEIVED
MAR 2 3 2021

RANDY T. THOMAS
417 BRYNE STREET
PETERSBURG, VA 23803
(804) 919-1556

i-

^ I
I

/

? ^
: S'

\%\±
'

r\w§
j

E

District of Columbia: SS
Subscribed and swQfffjto before me, in my presence,
this M riavnf ( J/
t ^ 0 oL I

RECEIVED
Elnora B. Evans, Notary Public, D.C.
My commission expires December 14, 2023.

JAN 2 5 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

No.

IN THE
SUPREME COURT OF THE UNITED STATES
RANDY T. THOMAS - PETITIONER
VS.
PETERSBURG UTILITY LINES WATER DEPARTMENT:
STEVE STANSON SUPERVISOR, MRS. JARMON (RETIRED) HEAD OF RISK
DEPARTMENT; KIMBERLY ROBERTSON, HUMAN RESOURCES DEPARTMENT
(RESPONDENTS)
AND

ANTHONY WILLLIAMS, PETERSBURG CITY ATTORNEY (RESPONDENT)
JIM REED, PETERSBURG FIRE DEPARTMENT (RESPONDENT)
SGT HALL, PETERSBURG POLICE FORCE (RESPONDENT)
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The petitioner asks leave to file the attached petition for a writ of certiorari without prepayment
of costs and to proceed in forma pauperis.
Please check the appropriate boxes:

V

Petitioner has previously been granted leave to proceed in forma pauperis in the
following conrt(s): United States District Court for the Eastern District of Virginia.
at Richmond. Henry E. Hudson, Senior District Judge. (3:19-cv-00162-HEH)

QUESTIONS PRESENTED
The Petitioner asks the court to decide if the Petitioner’s protections under the provisions of the
Family and Medical Leave Act (FMLA) where violated by Petersburg Utility Lines Water
Department in its determination to terminate the Petitioner’s employment, without due process,
during the timeframe that is substantiated by documented and approved FMLA leave request
based on disability.
LIST OF PARTIES

V

All parties appear in the caption of the case on the cover page.

TABLE OF CONTENTS
DECLARATION IN SUPPORT OF MOTION FOR LEAVE TO PROCEED IN FORMA
PAUPERIS

Page 2

QUESTIONS PRESENTED

Page 2

LIST OF PARTIES

Page 2

PROOF OF SERVICE

Page 3

OPINIONS BELOW

Page 4

JURISDICTON

Page 4

CONTITUTIATIONAL AND STATUTORY PROVISIONS INVOLVED

Page 4

STATEMENT OF THE CASE

Page

REASONS FOR GRANTING THE WRIT

Page 6

CONCLUSION

Page 6

INDEX OF APPENCIES
APPENDIX A:

Notice of Judgment from the United States District Court for
the Eastern District Of Virginia, at Richmond

APPENDIX B:

Order to Extend filing of Writ of Certiorari,
dated March 19,2020

APPENDIX C:

Proof of Service

APPENDIX D:

Family and Medical Leave Act documents
Letter from attending physican

APPENDIX E:

Letter of Termination, dated March 13,2017

No.

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
RANDY T. THOMAS - PETITIONER

OPINIONS BELOW
The opinion of the United States District Court for the Eastern District of Virginia, at
Richmond, appears at Appendix___to the petition and is

V

Is UNPUBLISHED.
JURISDICTION

The date on which the highest state court decided my case was August 24, 2020. A copy of that
decision appears at Appendix A.
An extension of time to file the petition for a writ of certiorari was granted to and included
Thursday March 19,2020 Appendix B.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Title VII of Civil Rights Act of 1964, as amended
Americans with Disabilities Act of 1990
Age Discrimination in Employment Act of 1967
Family and Medical Leave Act

No.

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
RANDY T. THOMAS - PETITIONER

STATEMENT OF THE CASE
I, Randy Thomas appeal to the Court to grant me a Writ of Certiorari to hear my case against the
Petersburg Utility Lines Water Department and the employees of that organization, in its
wrongful termination of my employment, while I was on an approved Family and Medical Leave
Act (FMLA) with medial documentation to support my leave of absence.
I was employed with the Petersburg Utility Lines Water Department from January 14, 2000, until
March 13, 2017. I was terminated on March 13, 2017 after 17 years of employment with that
organization. I was on approved for FMLA leave with medical documentation to support the
approved leave for the timeframe from January 18, 2017 through April 18, 2017. My
termination date of March 13, 2017 falls within the timeframe of my FMLA leave and is the
basis for my claim of wrongful termination.
The employees of Petersburg Utility Lines Water Department are also liable for retaliation
against me since I was prevented from participation in the administrative process of review
conducted by the names of all the Respondents in this petition that rendered the decision to
terminate my employment.

No.

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
RANDY T. THOMAS - PETITIONER

REASONS FOR GRANTING THE PETITION
I believe my petition for a Writ of Certiorari should be granted because I was wrongfully
terminated by the Petersburg Utility Lines Water Department from a position I held for 17 years
while on approved leave under the Family Medical Leave Act (FMLA), this approved leave is
supported by medical documentation. I also believe the decision by my former employer to
eliminate my participation in the administrative appeal process to terminate me was an act of
retaliation based on retaliation that resulted in my termination.

CONCLUSION
In conclusion I request a remedy of backpay owed me and compensatory damages for being
illegally and wrongfully terminated by the Petersburg Utility Lines Water Department.

Respectfully,

Randy T. Thomas

^ \OsJ
Date

=\

